No. 19-1348
IN THE

Supreme Court of the United States
IN RE: FEDERAL BUREAU OF PRISONS’
EXECUTION PROTOCOL CASES
JAMES H. ROANE, JR., ET AL.,
v.

Petitioners,

WILLIAM P. BARR, ATTORNEY GENERAL, ET AL.,
Respondents.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the District of Columbia Circuit
CERTIFICATE OF SERVICE

I am a member of the Bar of this Court, and I hereby certify pursuant to
Supreme Court Rules 29.3 and 29.5 (as modified by the Court’s Order of April 15,
2020) that I have, this 19th day of June, 2020, served the Brief of Administrative
Law Scholars as Amici Curiae in support of Petitioners upon each party separately
represented in this proceeding by causing an electronic copy of the same to be
delivered to counsel of record at the e-mail addresses listed below:
Catherine Emily Stetson
Hogan Lovells US LLP
cate.stetson@hoganlovells.com
Counsel for Petitioners
Noel J. Francisco
Solicitor General of the United States
SupremeCtBriefs@USDOJ.gov
Counsel of Record for Respondents

Pursuant to the Court’s April 15 Order, I certify that all parties have agreed
to accept such electronic service in lieu of service of paper copies. I further certify
that all persons required to be served have been served.
In addition, pursuant to Supreme Court Rule 29.7, I certify that I have
caused electronic copies of all documents to be filed with the Clerk.

____________________________
JAIME A. SANTOS
GOODWIN PROCTER LLP
1900 N Street, N.W.
Washington, DC 20036
JSantos@goodwinlaw.com
(202) 346-4000
June 19, 2020

Counsel of Record for Amici Curiae

